No.

IN THE
SUPREME COURT OF THE UNITED STATES

LEWIS FOX - PETITIONER/APPELLANT
V.
DAVID GRAY (WARDEN) - RESPONDENT/APPELLEE

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT

CERTIFICATE OF SERVICE

20 20 ,1 SERVED
DAY OF O
I CERTIFY THAT ON THE £
THE ENCLOSED IN FORMA PAUPERIS MOTION AND PETITION FOR WRIT OF
CERTIRORARI TO THE OHIO ATTORNEY GENERAL DAVE YOST AT 30 EAST BROAD
STREET, 14th FL, COLUMBUS, OHIO, 43215, THROUGH THE US POSTAL SERVICE IN
ACCORDANCE WITH SUP. CT. R. 29(3).
LEWIS R. FOX, PRO SE
#733-986
BELMONT CORR INST
P.O. BOX 540
ST. CLAIRSVILLE, OHIO
43950

10

